No.
IN THE SUPREME COURT OF THE UNITED STATES
Scott P. Roeder - PETITIONER.
v.
STATE OF KANSAS - RESPONDENT.

PROOF OF SERVICE

7

I, Eurica Califorrniaa. declare that on this date, December
., 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid.
The names and addresses of those served are as follows:
Mr. Derek Schmidt
Kansas Attorney General
120 SW 10th Ave., 2nd Floor
Topeka, KS 66612
Tel: (785) 296-2215
Fax: (785) 296-6296
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December

7

, 2020.

Mr. Eurica (Califorrniaa
57 Circle Way
Mahopac, NY 10541-1736
Cell: (310) 804-0727
Email: amb@juridic.org

v

/

No.

.

IN THE SUPREME COURT OF THE UNITED STATES
Scott P. Roeder - PETITIONER,
v.
STATE OF KANSAS - RESPONDENT.

CERTIFICATE OF MAILING

Z

, 2020, that I
I, Eurica Califorrniaa. declare that on this date, December
have mailed to the Clerk of the United States Supreme Court the enclosed PROOF
OF SERVICE, MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS, and
PETITION FOR A WRIT OF CERTIORARI by depositing an envelope containing
the above documents in the United States mail with first-class postage prepaid and
properly addressed to the Clerk as follows:
Clerk, U.S. Supreme Court
1 First Street, N.E.
Washington, DC 20543-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December ~7 . 2020.

Mr. Eurica Califprrniaa
57 Circle Way
Mahopac, NY 10541-1736
Cell: (310) 804-0727
Email: amb@juridic.org

